No.

IN THE
SUPREME COURT OF THE UNITED STATES

SHANTE BRUCE RICE-PETITIONER
VS.
COMMONWEALTH OF PENNSYLVANIA-RESPONDENT
PROOF OF SERVICE
I, Shante Bruce Rice, do swear or declare that on this date, Fgbr'uary 28, 20 21
2021, as required by Supreme Court Rule 29, I have served the enclosed Motion for
Leave to Proceed In Forma Pauperis and Petition for a Writ of Certiorari on each
party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class
postage prepaid.
The names and addresses of those served are as follows:
Cumberland County District Attorney’s Office
Cumberland County Courthouse
One Courthouse Square
Carlisle, PA 17013
I, Shante Bruce Rice, declare under penalty of perjury that the foregoing is true and
correct.
Executed on February 28, 2021

2021.

2

'j

Shante Bruce Rice, pro se
Inmate #MS7108
SCI Dallas
1000 Follies Road
Dallas, PA 18612-0286

No.

IN THE
SUPREME COURT OF THE UNITED STATES

SHANTE BRUCE RICE-PETITIONER
VS.
COMMONWEALTH OF PENNSYLVANIA-RESPONDENT
CERTIFICATION OF MAILING
I, Shante Bruce Rice, an inmate currently confined at SCI Dallas, pursuant to 28
U.S.C. §1746, declare under penalty of perjury that on February 28,2021 ,
2021, I deposited the enclosed Motion for Leave to Proceed In Forma Pauperis and
Petition for a Writ of Certiorari in my institution’s internal mail system and that
first-class postage has been prepaid.
I, Shante Bruce Rice, declare under penalty of perjury that the foregoing is true and
correct.
Executed on

February 28, 2021

, 2021.

JUwa j?#

1

Shante Bruce Rice, pro se
Inmate #MS7108
SCI Dallas
1000 Follies Road
Dallas, PA 18612-0286

